                                                                        Issue Date
                                                                           February 21, 2012
                                                                        Audit Report Number
                                                                           2012-NY-1007




TO:              Frank McNally, HUD Director, Congressional Grants Division, Community
                                               Planning and Development, DECC



FROM:            Edgar Moore, Regional Inspector General for Audit, NY-NJ Region, 2AGA

SUBJECT: The City of Syracuse, NY, Did Not Always Administer Its Economic
           Development Initiative Program in Accordance With HUD Requirements

                                           HIGHLIGHTS

    What We Audited and Why

                  We audited the City of Syracuse, NY, pertaining to its Economic Development
                  Initiative (EDI)-Special Project grants. We conducted this review because of
                  control weaknesses identified in our recent audit of the City’s Community
                  Development Block Grant (CDBG) program.1 The audit objective was to
                  determine whether City officials were administering EDI Special Project grants
                  effectively, efficiently, and economically in accordance with applicable rules and
                  regulations. Specifically, we wanted to determine whether City officials
                  expended EDI funds for eligible activities that were fully supported and achieved
                  the grant objective.

    What We Found
                  City officials did not always administer and monitor the City’s EDI-Special
                  Project grants effectively, efficiently, and economically in accordance with
                  applicable rules and regulations. Specifically, they did not ensure that (1) all
                  grant and leveraged costs were adequately documented to support the grant

1
    Audit Report Number 2012-NY-1003, dated October 25, 2011
           agreement’s intended use, (2) contract and procurement standards were followed,
           and (3) funds disbursed to recipients were used to complete activities in a timely
           manner. These deficiencies were due to management’s not implementing
           effective controls including monitoring procurements, disbursements, and grant
           progress to ensure that the program was conducted in accordance with the
           applicable regulations. As a result, more than $2.5 million of the funds disbursed
           was considered unsupported, and another $198,400 in preaward grant costs was
           ineligible.

What We Recommend
           We recommend that the Director of the U.S. Department of Housing and Urban
           Development’s (HUD) Congressional Grants Division instruct City officials to (1)
           repay from non-Federal funds the $198,400 in ineligible preaward grant
           disbursements; (2) submit documentation to justify the unsupported costs of more
           than $2.5 million so that HUD can make an eligibility determination and repay
           any amounts determined to be ineligible; and (3) establish controls to ensure that
           costs are properly procured, eligible, and necessary before being charged to the
           grants and performance goals are accomplished.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response
           We discussed the results of the review during the audit, provided a copy of the
           draft report to City officials, and requested their comments on January 6, 2012.
           We held an exit conference on January 24, 2012, and City officials provided their
           written comments on January 30, 2012, at which time they generally disagreed
           with the findings. The complete text of the auditee’s response, along with our
           evaluation of that response, can be found in appendix B of this report.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                         4

Results of Audit
      Finding: City Officials Did Not Always Adequately Administer EDI-Special   5
      Project Grants

Scope and Methodology                                                            15

Internal Controls                                                                16

Appendixes
   A. Schedule of Questioned Costs                                               18
   B. Auditee Comments and OIG’s Evaluation                                      19




                                           3
                       BACKGROUND AND OBJECTIVE

Economic Development Initiative (EDI)-Special Project grants are congressional grants
authorized each year in the annual U.S. Department of Housing and Urban Development (HUD)
appropriation and accompanying conference report or congressional record. Congress authorizes
a specific level of funding to a designated grantee to undertake a particular activity cited in the
appropriation or conference report. The entity named in that conference report or congressional
record will receive an invitation and application from HUD for the grant. EDI-Special Project
grants are administered by the HUD headquarters Office of Economic Development,
Congressional Grants Division. Upon receipt of the application, HUD will review the
application to ensure that the entity named by Congress will act as the grantee and that the
proposed activities are consistent with the terms of the appropriation act and accompanying
conference report or congressional record for the relevant fiscal year. Following that review,
HUD awards the grant to the entity named in the conference report or congressional record.
Eligible activities and restrictions are set forth in the authorizing language enacted by Congress
for each grant, as well as in the appropriation (EDI-Special Project) and Neighborhood Initiative
and miscellaneous grant funds. Eligible EDI activities include acquisition, planning, design,
purchase of equipment, revitalization, and redevelopment or construction.

The EDI-Special Project funds are also governed by 24 CFR (Code of Federal Regulations) Parts
84 and 85, as well as Office of Management and Budget (OMB) Circulars A-122 and A-133.

The City of Syracuse, NY, is a Community Development Block Grant (CDBG) entitlement
grantee. HUD awarded the City more than $6.6 million in CDBG funding in fiscal year 2010.
The City also received 41 EDI-Special Project grants from 1999 through 2006 totaling $13.7
million, of which about $800,000 remained available for drawdown at the time of our review.
The City operates under a mayor-council form of government, and its EDI activities are
administered by the City. The City is responsible for overseeing, monitoring, and managing all
of the EDI-Special Project grants. The files and records related to the City’s EDI activities are
maintained in City Hall, Syracuse, NY.

The audit objective was to determine whether City officials were administering EDI-Special
Project grants effectively, efficiently, and economically in accordance with applicable rules and
regulations. Specifically, we wanted to determine whether City officials expended EDI funds for
eligible activities that were fully supported and achieved the grant objective.




                                                4
                                RESULTS OF AUDIT

Finding:      City Officials Did Not Always Adequately Administer EDI-
              Special Project Grants
City officials did not always adequately administer and monitor their EDI-Special Project grants.
Specifically, they did not ensure that (1) all grant and leveraged costs were adequately
documented to support the grant agreement’s intended use, (2) contract procurement and cost
support standards were followed, and (3) grant funds disbursed to recipients were used to
complete activities in a timely manner. These deficiencies were due to management’s not
implementing effective controls including monitoring procurements, disbursements, and grant
progress to ensure that the program was conducted in accordance with the applicable regulations.
As a result, more than $2.5 million of the funds disbursed was considered unsupported, and
another $198,400 in preaward grant costs was ineligible. Thus, City officials could not ensure
HUD that funds were used only for approved activities, costs incurred were necessary and
reasonable, and all grant agreement activities and goals were being achieved.



 Background

              The City was awarded and was responsible for administering 41 EDI-Special
              Project grants from 1999 through 2006 totaling $13.7 million, and more than $8
              million had been expended before April 2007. We reviewed three of the largest
              EDI grants, which had total funding of more than $2.5 million and of which all or
              nearly all funds had been expended since 2009. We reviewed one additional grant
              of $198,400 that was expended in 2007, because problems with it were identified
              during our prior audit of the City’s CDBG program.

              Review of EDI-Special Project grants disclosed that the City’s files contained no
              documentation showing adequate grant monitoring. In addition, many progress
              and closeout reports, required by the grant agreement, were not documented as
              having been submitted to HUD. All of the grants reviewed showed a lack of
              documented monitoring by City officials. More importantly, City officials did not
              ensure that all EDI grant funds expended were supported by adequate
              procurement and cost records. The detailed results of the review and conclusions
              reached relating to each of the grants reviewed are contained in the following
              sections.

              EDI Grant Number: B-03-SP-NY-0589 for $1,688,950

              In 2004, the City was awarded more than $1.6 for environmental remediation of
              contaminated cells, and the grant was amended in 2009 to permit the use of the
              remaining funds for green technology at a major shopping mall expansion project.

                                                5
           City officials did not document that the more than $1.6 million in funds disbursed,
           which included more than $63,000 disbursed for environmental cleanup, was
           reasonable and necessary. There was a lack of documentation to show
           compliance with procurement requirements and that the developer had complied
           with grant requirements to provide more than $10 million in leveraged funding for
           the project. In addition more than $550,000 had been disbursed for lights that had
           not been installed after the grant activity was supposed to have been completed.
           Further, City officials could not provide a copy of the executed grant agreement
           with the developer, and there was a lack of documented monitoring of this grant.


Unneccesary and Unreasonable
Costs

           City officials did not document that the more than $1.6 million in disbursed EDI
           grant funds was proper, necessary, and reasonable. OMB Circular A-87 provides
           that to be allowable under Federal awards, costs must be necessary and reasonable
           for proper and efficient performance and administration of Federal awards.
           Review of the disbursements revealed that there was a lack of evidence of
           competitive procurement and monitoring by City officials to ensure that the costs
           incurred were reasonable. Specifically, there was no evidence of competitive
           procurement for all of the disbursements for this grant, and some work items
           including the lighting had not been completed more than a year after the funds
           were disbursed.

           Regulations at 24 CFR 85.40 provide that grantees are responsible for managing
           the day-to-day operations of grant- and subgrant-supported activities. Grantees
           must monitor grant- and subgrant-supported activities to ensure compliance with
           applicable Federal requirements and that performance goals are achieved.
           However, this requirement was not met, as City officials did not maintain
           documentation to show that the grant activities had been monitored for
           compliance with performance goals and procurement requirements and City
           officials could not document that costs were reasonable and necessary.

           Included in the more than $1.6 million questioned was $63,850 for the
           environmental remediation of contaminated cells, which was the original purpose
           of this grant. These funds were expended on environmental studies before the
           project was amended to a green technology focus. However, the final work
           product was not accomplished; therefore, the use of the funds did not appear to be
           necessary or reasonable.

           Inspection of the project in September 2011 and discussion with developer
           representatives revealed that the contaminated cells were not moved or further
           contained. The developer was going to finish the project with New York State
           funding, but it was not completed. Thus, $63,850 of the HUD EDI funds was
           expended on the engineering and design phase of certain environmental work and

                                            6
            studies before the project was amended to a green technology focus. Therefore,
            the $63,850 should be reimbursed to the EDI, since no final work product was
            achieved.


Lack of Documented
Procurement

            City officials could not provide evidence or support to document that grant costs
            were procured in a manner following Federal procurement standards which
            require full and open competition. Regulations at 24 CFR 85.36 state that
            grantees and subgrantees must maintain records sufficient to detail the significant
            history of procurement. These records must include but are not necessarily
            limited to the following: rationale for the method of procurement, selection of
            contract type, contractor selection or rejection, and the basis for the contract price.

            Not only was there no evidence of procurement, some of the support for very
            large expenditures consisted of only one-page invoices.

Lack of Compliance With
Leveraging Requirements

            In addition to inadequate support for the disbursed EDI funds, City officials did
            not obtain support for the more than $10 million in leveraged funding that was to
            be provided by the developer in accordance with the grant agreement. Our
            inspection showed that more than $8 million in promised leveraged activities had
            not been completed, including the work items for store floors and walls, although
            the final EDI grant funds were disbursed to the developer in September 2010.

Purchased Lights Not Installed
in a Timely Manner

            Review of this grant showed that the nearly $12 million in activities for the
            implementation of green building components at Destiny USA (a major shopping
            mall expansion) remained substantially incomplete more than 1 year after the
            September 22, 2010, grant expenditure deadline. While City officials had
            disbursed the total HUD EDI grant funding of more than $1.6 million by the
            September 2010 expenditure deadline, our inspection found that more than
            $500,000 in HUD-funded energy-efficient lighting remained in shipping boxes as
            of September 7, 2011.

            We inspected the project in September 2011 and discussed the project status with
            developer representatives. Significant issues noted were as follows:



                                               7
       None of the interior expansion area walls and floors was complete. The
       floors were concrete and did not contain finished flooring materials
       although the leveraged dollars in the grant agreement were to pay for more
       than $8.4 million in walls and flooring.

       More importantly, more than $500,000 in HUD EDI grant money
       purchased the energy-efficient lighting, but none of it had been installed;
       this valuable lighting was still in the shipping boxes inside the unfinished
       mall. Since the lighting had been purchased with the HUD EDI funding
       more than 1 year earlier, it appeared that the purchase was not necessary at
       the time, and the product remained vulnerable to theft or damage (see
       photographs below).

Photographs taken in September 2011 show that the energy-efficient lighting
purchased in 2010 for this green technology project were not installed and
remained in their shipping crates.




                                 8
          Less than 2 months before the September 22, 2010, expenditure deadline for this
          project, the project developer requested and City officials disbursed EDI grant
          funds for the energy-efficient lights that remained in shipping boxes as follows:

                                               Voucher
                                    Date                   Amount

                                   08/11/2010             $100,758

                                   08/25/2010             $307,713

                                   09/01/2010             $ 80,185

                                   Total                  $488,656

          An additional $68,168 in EDI funds had been disbursed earlier in 2010, so the
          total disbursements for energy-efficient lighting were $556,824. Although the
          EDI grant funding was disbursed by the September 2010 deadline, the lighting
          remained uninstalled 1 year later. As part of the amended February 2009 grant
          agreement, the developer for the project was required to complete all of the green
          energy features, which included the store lighting systems, by the September 22,
          2010, deadline. In addition, if the funds were not disbursed by the deadline, the
          funding was to be returned to the U.S. Treasury according to correspondence from
          HUD headquarters, dated August 2, 2010, which indicated that this was a
          statutory requirement of 31 U.S.C. (United States Code) Section 1552 that could
          not be waived. Moreover, the developer claimed in a recent project update that
          “each of the HUD grant green building projects had been completed.”

Lack of Grant Agreement and
Documented Monitoring

          City officials did not execute a subrecipient grant agreement or other written
          agreement with the project developer. HUD approved a grant agreement and an
          amended grant agreement with City officials. However, City officials did not
          execute an agreement with the developer. Therefore, there was no documented
          evidence of the terms of the agreement between the City and the developer, and it
          could be difficult to enforce the terms of the HUD grant agreement and program
          requirements and hold the developer accountable for his performance. Further,
          City officials did not inspect or adequately monitor the activities of the developer
          to ensure compliance with grant agreement provisions and applicable Federal
          regulations. Regulations at 24 CFR 85.40 provide that grantees are responsible
          for managing the day-to-day operations of grant- and subgrant-supported
          activities. Grantees must monitor grant- and subgrant-supported activities to
          ensure compliance with applicable Federal requirements and that performance
          goals are achieved. More than 1 year after this grant was fully disbursed, many of

                                           9
            the promised work items remained incomplete, and the City could not document
            that costs were reasonable and necessary.

            Finally, City officials failed to document important grant closeout requirements
            for this large EDI grant, such as (1) certification of project completion, (2) grant
            closeout agreement, (3) final performance report, and (4) final financial report.
            Based on the above-mentioned deficiencies, we concluded that the grant costs
            totaling more than $1.6 million were unsupported pending a HUD eligibility
            determination.

            EDI Grant Number: B-04-SP-NY-0555 for $497,050

            City officials disbursed $497,050 in EDI grant funds earmarked for the Landmark
            Theater project. The grant funds were provided to the Landmark Theater for
            restoration and expansion. The project included the demolition of the existing
            stagehouse and the reconstruction of a new larger stagehouse to accommodate a
            greater variety of activities. In this expansion, the adjacent property would be
            integrated into the theater property. The stagehouse would incorporate a larger
            stage, a fly loft, stage-loading berths, and associated back-of-the-house program
            areas.

Lack of Support for
Procurement, Disbursements,
and Monitoring

            City officials did not ensure that the costs incurred were necessary, reasonable,
            and adequately supported or that objectives of the grant had been accomplished.

            The final amended budget for the project was as follows:

            Amended budget

            Acquisition costs                                      $454,700
            Design, schematic, architectural fees                    41,200
            Theater equipment                                         1,150
            Total                                                  $497,050


            Our review of project files showed that City officials did not maintain adequate
            documentation of compliance with program requirement, including

                   Documentation of compliance with procurement procedures to ensure that
                   contracts were executed in a manner following Federal procurement
                   requirements that provided for full and open competition.



                                              10
       A written contract or agreement between the City and Landmark Theater
       delineating the City’s and the grant recipient’s responsibilities under the
       EDI grant agreement.

       Adequate support for claimant vouchers, such as invoices and cancelled
       checks.

       Evidence of submission or review of Landmark Theater’s audited
       financial reports.

Moreover, the review identified that although City officials disbursed $454,700
from the grant for property acquisition costs, file documentation indicated that
Landmark officials used proceeds from a January 2008 bank loan of more than
$1.3 million to pay for property acquisitions. Despite many requests, City
officials were not able to provide us with cancelled checks for grant payments
made to Landmark, nor could they provide an amortization schedule relating to
the $1.3 million bank loan. Regulations at 24 CFR 85.20(b)(2) provide that
grantees and subgrantees must maintain records, which adequately identify the
source and application of funds provided for financially assisted activities. These
records must contain information pertaining to grant or subgrant awards and
authorizations, obligations, unobligated balances, assets, liabilities, outlays or
expenditures, and income. Also, 24 CFR 85.20(b)(6) provides that accounting
records must be supported by such source documentation as cancelled checks,
paid bills, payrolls, time and attendance records, contract and subgrant award
documents, etc. Further, OMB Circular A-87, attachment A, section C.1.a,
provides that to be allowable under Federal awards, costs must be necessary and
reasonable for proper and efficient performance and administration of Federal
awards and costs must be adequately documented. However, since City officials
did not adequately monitor the grant to ensure that costs were necessary,
reasonable, and fully documented, the $497,050 was considered unsupported
pending a HUD eligibility determination.

EDI Grant Number: B-05-SP-NY-0566 for $372,000

City officials disbursed $372,000 in EDI grant funds earmarked for the Syracuse
Stage project without ensuring that the costs incurred were necessary and
reasonable. Specifically, the grant funds were provided to Syracuse Stage by the
City for facilities restoration and expansion of the Archbold Theater, including
design costs of $64,406, costs of $194,595 for a dimmer board, costs of $48,924
for LED lighting, and wiring improvements costs of $64,075.




                                 11
Lack of Support for
Procurement and
Disbursements

           Review of project files showed that City officials did not document

                  Evidence that Syracuse Stage used appropriate procurement procedures to
                  ensure that contracts were executed in a manner following Federal
                  procurement requirements that provided for full and open competition,

                  A written contract or agreement between the City and Syracuse Stage
                  delineating the City’s and the grant recipient’s responsibilities under the
                  EDI grant, and

                  Evidence of submission or review of Syracuse Stage’s audited financial
                  reports.

           Apart from the above, review of the grant documentation indicated that the City
           prepared grant closeout documentation for submission to HUD; however, there
           was no documentation in the files to show that HUD received or approved the
           grant closeout. Moreover, the line-item costs identified in the closeout
           documentation did not agree with the line-item amounts contained in the grant
           budget, nor was there evidence that a budget amendment was submitted to or
           approved by HUD.

           Also, City officials could not explain why email correspondence documented in
           the files from the City to Syracuse Stage stated that “the professional service fee
           would not have to be bid.” Regulations at 24 CFR 85.36(c)(1) provide that all
           procurement transactions must be conducted in a manner providing full and open
           competition consistent with the standards of 24 CFR 85.36.

           Since City officials could not demonstrate that they procured transactions relating
           to the EDI grant for Syracuse Stage in a manner following Federal procurement
           requirements that provided for full and open competition, we considered the costs
           incurred of $372,000 to be unsupported pending a HUD eligibility determination.

           EDI Grant Number: B-05-SP-NY-1037 for $198,400

           In addition to reviewing the three large EDI grants discussed above, we reviewed
           one grant of $198,400 that was expended in 2007, because it was identified as
           questionable during our prior audit of the CDBG program. This grant was
           awarded for the rehabilitation of commercial space and apartments.




                                            12
    Funds Disbursed for Preaward
    Costs

                 The recipient of this grant incurred costs before the grant award date, which the
                 City later reimbursed from EDI funding. Review of the supporting
                 documentation related to the claimant’s voucher for $198,400 revealed that the
                 costs were incurred in July 2006. However, the EDI-Special Project grant award
                 notice from HUD and grant agreement between HUD and the City were dated and
                 executed October 29, 2006. The Request for Release of Funds and Certification
                 (form HUD-7015.15) was received by HUD on October 18, 2006, and signed by
                 HUD on November 3, 2006. In addition, the City’s fiscal files for this grant
                 contained a LOCCS [Line of Credit Control System] VRS [Voice Response
                 System] Request Voucher for Grant Payment (form HUD-27053),2 dated
                 December 14, 2006, requesting drawdown of the entire grant amount of $198,400.
                 Therefore, although the funds were drawn down after the activity had been
                 approved by HUD, the costs were incurred before the activity was approved by
                 HUD.

                 OMB Circular A-87, attachment B, section 31, provides that preaward costs are
                 those costs incurred before the effective date of the award directly pursuant to the
                 negotiation and in anticipation of the award when such costs are necessary to
                 comply with the proposed delivery schedule or period of performance. Such costs
                 are allowable only to the extent that they would have been allowable if incurred
                 after the date of the award and only with the written approval of the awarding
                 agency. In this case, there was no written approval from HUD to allow for
                 preaward costs, and City officials had instructed the grant recipient that preaward
                 costs were not allowed.

    Conclusion

                 City officials did not always adequately administer and monitor their EDI-Special
                 Project grants. Specifically, they did not ensure that (1) all grant and leveraged
                 costs were adequately documented to support the grant agreement’s intended use,
                 (2) procurement and cost support standards were folowed, and (3) funds disbursed
                 to recipients were used to complete activities in a timely manner. These
                 deficiencies were due to management’s not implementing effective controls
                 including monitoring procurements, disbursements, and grant progress to ensure
                 that the program was conducted in accordance with the applicable regulations. As
                 a result, more than $2.5 million ($1,688,950 + $497,050 + $372,000) of the funds
                 disbursed was considered unsupported, and another $198,400 in preaward grant
                 costs was ineligible. Thus, City officials could not ensure HUD that funds were


2
  The LOCCS Request Voucher is a form that is completed by City officials before requesting the drawdown of
funds from HUD.

                                                      13
         used only for approved activities, costs incurred were necessary and reasonable,
         and all grant agreement activities and goals were being achieved.


Recommendations

         We recommend that the Director of HUD’s Congressional Grants Division
         instruct City officials to

         1A.      Repay from non-Federal funds the ineligible preaward costs incurred of
                  $198,400.

         1B.      Submit documentation to justify the unsupported costs incurred of
                  $2,558,000 so that HUD can make an eligibility determination. For any
                  costs determined to be ineligible, HUD should require the City to
                  reimburse HUD from non-Federal funds.

         1C.      Establish controls to ensure that City Officials document that EDI grant-
                  and subgrant-supported activities are adequately procured, monitored, and
                  administered to provide assurance that funds have been used only for
                  eligible activities, costs incurred are necessary and reasonable, and EDI
                  grant goals are being achieved.




                                          14
                         SCOPE AND METHODOLOGY

The onsite audit work for this review was conducted at the City’s offices, located in Syracuse, NY,
between May and October 2011. The audit scope covered the period January 1, 2006, through April
30, 2011, and was expanded as necessary. To accomplish the objectives, we

       Reviewed applicable HUD regulations, the Code of Federal Regulations, and other
       requirements and directives that govern the EDI-Special Project grants.

       Reviewed the City’s applicable policies and procedures used to administer EDI activities.

       Interviewed City personnel responsible for administration of its EDI activities.

       Obtained and reviewed documentation from the City pertaining to EDI grant activities
       reviewed.

       Reviewed all costs charged to the EDI grants and activities tested during the audit, along
       with the applicable supporting documentation provided.

       Reviewed information systems data from HUD’s Integrated Disbursement and Information
       System (IDIS) for background and information purposes. We performed a minimum level
       of testing and found the computer processed information to be adequate for our purposes.

Syracuse received 41 EDI-Special Project grants from 1999 through 2006 totaling $13.7 million.
All samples were selected in a nonstatistical manner. Specifically, we selected three grants that
had the largest amount of funds disbursed during the period May 1, 2009, through April 30,
2011. These three grants received funding totaling more than $2.5 million. We tested 100
percent of these disbursements, which included amounts disbursed before May 1, 2009. We
reviewed one additional grant of $198,400 that was expended in 2007, because problems with it
were identified during our prior audit of the CDBG program (Audit Report Number 2012-NY-
1002, issued October 25, 2011). We noted that most of the $13.7 million (more than $8 million)
in EDI grants was expended before April 2007.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our finding
and conclusions based on our audit objective.




                                                 15
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                  Effectiveness and efficiency of operations - Policies and procedures that
                  management has implemented to reasonably ensure that a program meets its
                  objectives.

                  Reliability of financial data and reporting - Policies and procedures that
                  management has implemented to reasonably ensure that valid and reliable data
                  are obtained, maintained, and fairly disclosed in reports.

                  Compliance with applicable laws and regulations - Policies and procedures
                  that management has implemented to reasonably ensure that resource use is
                  consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 16
Significant Deficiencies


            Based on our review, we believe that the following items are significant deficiencies:

                   City officials did not have adequate controls over the effectiveness and
                   efficiency of operations when they did not ensure that EDI grant activities
                   were used to accomplish grant objectives and fully complied with all grant
                   agreement requirements (see finding).

                   City officials did not have adequate controls over reliability of financial data
                   and reporting when they did not adequately monitor grant and subgrant
                   activities or maintain sufficient documentation in support of costs charged
                   to EDI activities (see finding).

                   City officials did not have adequate controls over compliance with laws and
                   regulations as they did not always comply with HUD regulations,
                   including procurement regulations, while procuring and disbursing EDI
                   funds (see finding).




                                             17
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS


                 Recommendation         Ineligible 1/       Unsupported
                        number                                       2/

                        1A              $198,400
                        1B                                  $2,558,000

                       Total            $198,400            $2,558,000


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 1



Comment 2




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 2



Comment 2




Comment 2



Comment 2



Comment 3




Comment 4




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 5




Comment 5



Comment 6




Comment 7




Comment 8




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 9




Comment 9



Comment 9




Comment 10




Comment 11




Comment 12




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 13




Comment 14



Comment 14



Comment 15




Comment 16




Comment 17




                         23
Ref to OIG Evaluation   Auditee Comments




Comment 17




Comment 18




Comment 18



Comment 19



Comment 20




Comment 21




                         24
                          OIG Evaluation of Auditee Comments

Comment 1    City officials indicated that most of the EDI grants were approved and expended
             prior to the current City administration. Further, City officials indicated that
             HUD never held up any funds over any issues with the program, and thus, the
             City assumed that HUD was satisfied with the program. This audit focused on
             grants for which City officials made EDI disbursements after May 2009, and it
             was determined that significant deficiencies existed in the administration of the
             grants involving cost support and reasonableness, project completion, and
             procurements. Therefore, regardless of when the current administration was
             assigned they are responsible for ensuring compliance with program requirements
             and resolving these issues.

Comment 2    City officials indicated that adhering to the letter of federal procurement
             regulations was an unreasonable burden to be placed on a municipality. City
             Officials indicated that HUD had agreed to the scope of the work, and that many
             times the products purchased were unique. Nevertheless, when the grant was
             given City officials were required to comply with all of the procurement
             regulations found at 24 CFR 85.36 for all the EDI grants. However, the audit
             showed that City did not always comply with the applicable procurement
             regulations.

Comment 3    City officials indicated that there was no requirement to execute agreements with
             EDI awardees and that prior City admininistrations viewed the City as a pass
             through fiscal entity that was not bound to enter into grant agreements with the
             recipients. However, regulations at 24 CFR 85.40 provide that grantees are
             responsible for managing the day to day operations of grant supported activities.
             Grantees must monitor grant and sub-grant supported activities to ensure
             compliance with applicable Federal requirements and that performance goals are
             achieved. Thus the lack of proper agreements contributed to an inadequate
             control environment whereby the City did not properly monitor sub-grant
             activities and could not hold the subgrantee responsible for compliance with
             Federal requirements.

Comment 4 City officials indicated that grant costs were adequately documented to support
          each grant agreement by virtue of the fact that HUD paid the LOCCS drawdowns.
          However, the fact that HUD paid the drawdown does not preclude the City from
          ensuring that adequate support is maintained. Thus, the audit found numerous
          weaknesses regarding supporting documentation, including: no evidence of
          analysis of cost reasonableness, inadequate description of the cost items, and
          inadequate evidence that the costs were for approved grant activities. Therefore,
          HUD officials will have to make a determination as to whether the costs paid
          were allowable or should be repaid from non-Federal funds.

Comment 5    City officials indicated that the requirements to maintain documentation and
             provide oversight of leveraged costs was an unreasonable burden because

                                             25
            administrative funding had not been provided to assist in the oversight and
            management of either leveraged or grant costs, and that the City lacked the
            capacity to account for the large amount of private money that did not flow
            through the City. However, the leveraged costs for Destiny, which were included
            in the grant agreement were required to be completed and were an integral
            component of the overall success of the activity or project; as such, City officials
            should have been monitoring the subgrantee to ensure that these activities were
            completed. OIG inspection found that the work items that were to be completed
            with leveraged funding had not been installed or completed within the established
            time frame. Regulations at 24 CFR 85.40 provide that grantees are responsible
            for managing the day-to-day operations of grant- and subgrant-supported
            activities. Grantees must monitor grant- and subgrant-supported activities to
            ensure compliance with applicable Federal requirements and that performance
            goals are achieved.

Comment 6   City officials indicate that they performed adequate monitoring by performing
            desk audits of the costs and submitted this documentation with the requests for
            reimbursement to HUD. However, the monitoring of EDI activities was not
            adequate to protect the program assets. Some activities remained incomplete and
            unsupported even after the grant deadline, and other grant activities were not
            supported as to the final use of the EDI grant funds.

Comment 7   City officials contend that the energy efficient lighting of over $500,000 that
            remains in shipping boxes was not required to be installed because it was only
            listed on the budget for the grant agreement, and there was no requirement for the
            lighting to be installed. The grant activities should have all been completed by
            the September 2010 deadline for expending the grant funds. Since the funds
            related to the lights were disbursed more than a year ago, and the lights have not
            been installed, City officials did not ensure the timely and successful completion
            of this activity.

Comment 8   City officials indicate that the reasons for the project delays were well
            documented, and the fact that the lighting was not installed over one year after
            purchase is alright since the funds were used as intended. Further, they state that
            the lighting will be installed by the spring of 2012. Nevertheless, the lighting has
            not been installed timely, thus, there are questions about whether the procurement
            of lights was appropriate as there is a lack of documentation to show that the costs
            were necessary and reasonable.

Comment 9   City officials state that the $63,850 of HUD EDI funds expended on the design
            and engineering phase of certain environmental work and studies was appropriate
            because the studies concluded that no further work was necessary. City officials
            also contend that approval of a change in the scope of the project by HUD
            amounted to tacit approval of the previously expended funds. However, the
            results of the environmental study had not been provided to OIG during the audit.
            In fact, the developer had stated that the environmental work was supposed to be

                                             26
               completed with NY State funding, but the work was never accomplished.
               Therefore, City officials will need to clarify this issue with HUD as part of the
               audit resolution process, and HUD will need to make a determination as to
               allowability of the costs expended for the environmental remediation since no
               final work product was achieved.

Comment 10 City officials indicate that they were not responsible for ensuring that the leverage
           funded activity at Destiny of walls and floors was completed. The leveraged
           activities were a part of the grant agreement, as such, the City is responsible for
           ensuring that grant and sub-grant activities accomplish the grant objectives. The
           delay in completion again illustrates that federal dollars have been expended
           towards a project that did not, to date, achieve the required grant objective of
           creating an energy efficient expansion of a shopping mall.

Comment 11 City officials indicate that HUD Washington officials had urged the City to
           process the lighting payments of $488,656 and speed up the payments to the
           developer before the grant deadline. Review of the correspondence from HUD
           revealed that HUD had informed City officials that as of August 2, 2010, the
           related Economic Development Initiative-Special Project grant had an
           unexpended balance of $1,165,769 and that pursuant to the provisions 31 U.S.C.
           Section 1552, any funds associated with this Congressional grant that have not
           been disbursed to the grantee by September 22, 2010, would be cancelled and
           returned to the U.S. Department of Treasury, and would no longer be available for
           disbursement. Thus, HUD did not waive compliance with the applicable
           requirements for procurement and disbursement of these funds. City officials are
           responsible for all EDI grant costs being properly supported and reasonable.
           However, the costs were not properly supported as to reasonableness and
           description of product, and there was no evidence of compliance with
           procurement requirements.

Comment 12 City officials indicate that grant close out was not completed due to the
           commencement of the OIG audit, current staff could not locate closeout
           documentation, and HUD Washington would not respond to the City regarding
           grant close outs. City officials need to address this issue with HUD as part of the
           audit resolution process as grant close outs are required to be documented to
           ensure compliance with the applicable requirements.

Comment 13 City officials indicate they will show that the EDI funds were used for the stated
           purpose of the grant. However, supporting documentation was requested several
           times during the audit, including cancelled checks, a loan amortization schedule,
           and accounting records verifying the subgrantee’s deposit and expenditure of the
           grant funds awarded but was not provided. Thus, HUD will have to determine if
           the costs related to this grant are allowable as part of the audit resolution process.

Comment 14 City officials contend that subgrantee audited financial reports and written grant
           agreements between the City and subgrantee were not a necessary requirement of

                                                27
              the project. Regulations at 24 CFR Part 85.40 require that grantees be responsible
              for managing the day-to-day operations of grant and subgrant supported activities.
              As such, review of subgrantee financial statements and written grant agreements
              with subgrantees, detailing responsibility for grant management and processing,
              would enhance controls and improve monitoring effectiveness over the HUD
              grant funding provided.

Comment 15 City officials indicate that they cannot speculate as to why a past employee’s
           email to the subrecepient stated that “the professional service fee would not have
           to be bid.” They note that Syracuse Stage is an appendage of Syracuse
           University, which may have been considered at some point to provide
           professional services to the project thus by-passing the need to competitively bid.
           Nevertheless, all procurement transactions must be conducted in a manner
           providing full and open competition consistent with the regulations at 24 CFR
           85.36.

Comment 16 City officials indicate that they were unable to prove if HUD received the close-
           out documentation or if no action was taken by HUD to close the project out.
           Regualtions at 24 CFR 85.50 provides that the Federal agency will close out the
           award when it determines that all applicable administrative actions and all
           required work of the grant have been completed. Therefore, the grant close-out
           should be accomplished as part of the audit resolution process.

Comment 17 City officials indicate they intend to seek HUD’s approval for these preaward
           costs because of the small amount of time that passed between when the costs
           were incurred and when the grant was executed or to allow other costs incurred
           after the execution of the agreement to be substituted for these costs. Written
           approval of the preaward costs from HUD had not been obtained and these costs
           are generally not allowable without written approval. HUD will have to
           determine whether these costs are allowable as part of the audit resolution
           process.

Comment 18 City officials indicate that since most of its EDI grants were awarded in previous
           periods during a twelve-year span, HUD should have expressed its concerns
           during the height of the grants and not years later. Our audit focused on grants for
           which City officials made disbursements of EDI funds after May 2009 and
           determined that significant deficiencies existed in the administration of the grants
           including cost support and reasonableness, project completion, and procurement;
           thus the current administration is responsible for ensuring compliance with these
           requirements.

Comment 19 City officials indicate that HUD was provided documentation prior to
           disbursement for each grant, and that it was HUD who despite the City’s wariness
           of some of the disbursements cited in this report, urged the City to move faster in
           reimbursing awardees these funds. Nevertheless, the City was responsible for
           ensuring that the grant activities were completed within the applicable time

                                              28
              frames and the disbursements were properly supported. Our audit revealed that
              costs were not always adequately supported as necessary and reasonable,
              procurements were not properly documented to ensure full and open competition,
              and monitoring of subgrantee performance by City officials was not adequate.

Comment 20 City officials indicate that the EDI program was a success in terms of economic
           development. The audit objectives did not include evaluating the effectiveness of
           the EDI program in stimulating the local economy. The audit was performed to
           determine whether the City was administering its grants effectively, efficiently
           and in accordance with the applicable rules and regulations, and to determine if
           funds were expended for eligible activities that were fully supported and achieved
           the grant objective. The audit revealed improvement was needed in all of these
           areas.

Comment 21 City’s officials indicate that the projects were successful and rather than be
           second guessed long after funds have been expended they want to learn from their
           shortcomings in administering these funds and work on improving internal
           controls. The audit report provides specific examples of the shortcomings noted
           related to the grants reviewed and recommendations, which if implemented
           should improve the administration of the EDI program




                                             29
